     Department of Homeland Security

     ��������������������������



 FEMA Should Recover $2.3 Million of Unsupported, 

 Unused, and Ineligible Grant Funds Awarded to East 

   Jefferson General Hospital, Metairie, Louisiana 





OIG-14-53-D                                March 2014

                                  OFFICE O.F INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Wa.•hington, DC 20S2R i W\\w.oig.dhli.gov




MEMORANDUM FOR:

                                                                             ent Agency

FROM:
                                       Assistal)   spector General
                                       Office  ofEmergency Management Oversight

SUBJECT:                              FEMA Should Recover $2.3 Million of Unsupported,
                                      Unused, and Ineligible Grant Funds Awarded to Eost
                                      Jefferson General Hospital, Metairie, Louisiana
                                      FEMA Disaster Number 1603-DR-LA
                                      Audit Report Number OIG-14-53-0

We audited Public Assistance grant funds awarded to East Jefferson General Hospital
(Hospital) in Metairie, louisiana (Public Assistance Identification Number 051-UTUK-00).
Our audit objective was to determine whether the Hospital accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines.

The Governor's Office of Homeland Security and Emergency Preparedness (State), a
FEMA grantee, awarded the Hospital $12.4 million for damages resulting from Hurricane
Katrina, which occurred on August 29, 2005. The award provided 100 percent funding
for 221arge and 51 small projects. 1 The audit covered the period August 29, 2005,
through June 20, 2013, the cutoff date of our audit, and included a review of 111arge
and 5 small projects totaling $9.48 million, or 76 percent of the total award (see Exhibit,
                                                      2
Schedule of Projects Audited and Questioned Costs). As of our cutoff date, the Hospital
had claimed and the State had reimbursed $9.9 million.




1
    Federal regulations in effect at the time of the disaster s~t the large project threshold at $55,500.
2
    We audited the gross amount of $14.3 million awarded before reductions for insurance.
                                             f




                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Table 1 shows the gross and net award amounts before and after reductions for
insurance for all projects and for those in our audit scope.

                          Table 1. Gross and Net Award Amounts

                              Gross Award          Insurance     Net Award
                                Amount            Reductions      Amount
           All Projects       $14,292,177        ($1,885,667)   $12,406,510
           Audit Scope        $10,624,801        ($1,149,203)   $9,475,598

Because the Hospital needed additional time to obtain its procurement documents from
a third-party contractor, we have divided the audit into two phases. During this first
phase, we reviewed the support and eligibility of specific costs the Hospital claimed. We
are planning a second phase to review the methodology the Hospital used to award
disaster-related contracts.

We conducted this phase of the performance audit between June 2013 and January
2014 pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based upon our audit objective. We conducted this audit by applying the
statutes, regulations, and FEMA policies and guidelines in effect at the time of the
disaster.

We interviewed FEMA, State, and Hospital officials; reviewed judgmentally selected
project costs (generally based on dollar value); and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of
the Hospital’s internal controls applicable to grant activities because it was not
necessary to accomplish our audit objective. We did, however, gain an understanding of
the Hospital’s method of accounting for disaster-related costs.


                                     BACKGROUND

East Jefferson General Hospital is a publicly owned and operated Louisiana service
district hospital with a volunteer board of 10 Directors appointed by the Jefferson Parish
Council and the parish President. In August 2005, the Hospital was one of only three
hospitals in the New Orleans metropolitan area that remained open in the aftermath of


www.oig.dhs.gov                             2                               OIG-14-53-D
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

Hurricane Katrina. The storm’s strong winds, heavy rainfall, and flooding damaged
multiple buildings throughout the Hospital’s campus and other off-site Hospital-owned
properties.


                                          RESULTS OF AUDIT

Generally, the Hospital accounted for and expended FEMA grant funds on a project-by-
project basis as Federal regulations and FEMA guidelines require. However, the
Hospital’s claim included $768,667 of unsupported and ineligible costs. As a result, we
question $768,667, consisting of $325,853 of unsupported contract costs (finding A),
$307,495 of ineligible costs the Hospital incurred after the project completion deadline
(finding B), and $135,319 of ineligible building repair and equipment costs (finding C).

In addition, FEMA should deobligate $1,493,606 of unused funds on five completed
projects and one project the Hospital does not intend to complete and put the funds to
better use (finding D). The majority of these findings occurred because the State, as the
grantee, did not adequately monitor the Hospital’s subgrant activities to ensure
compliance with Federal regulations and FEMA guidelines. Therefore, FEMA should
direct the State to improve its subgrant management.


Finding A: Documentation of Costs

The Hospital’s claim included $325,853 of unsupported time-and-material contract
costs. The Hospital did not require its contractors to provide $317,983 in support for
contract labor and equipment amounts billed, such as contract agreements or rate
schedules and subcontractor invoices. Additionally, the Hospital could not provide
evidence that it paid $7,870 to its vendor for contract work. Cost principles at 2 Code of
Federal Regulations (CFR) CFR 225, Appendix A, Section C.1.j., state that a cost must be
adequately documented to be allowable under Federal awards.3 Therefore, we question
contract costs totaling $325,853 as unsupported costs for work related to time-and-
material contracts.

Hospital officials said they did not obtain supporting documentation from their
contractors because they were not aware they needed to obtain records to support
time-and-material billings. They also said that their focus after the hurricane was on
serving patients, rather than retaining documentation. By not reconciling contractor
invoices to contract agreements and rate schedules, the Hospital and FEMA have no
assurance that contractors billed according to the contracted rates and performed work

3
 OMB Circular A-87, in effect at the time of the disaster, was relocated to 2 CFR, part 225, on August 31,
2005.

www.oig.dhs.gov                                      3                                     OIG-14-53-D
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

on only approved project activities. Hospital officials said they will attempt to obtain
documentation from their contractors. We will consider any additional support the
Hospital provides during our audit follow-up process.

Finding B: Project Extension

The Hospital claimed $307,495 after its project completion deadline expired. FEMA
established an August 29, 2010, deadline to complete $1,116,514 of building repairs and
mold remediation on one of its medical buildings.4 However, the Hospital did not meet
this deadline or file for an extension. The Hospital claimed $1,011,317 for repair work
before the August 29, 2010, project completion deadline. However, the Hospital claimed
an additional $307,495 in repair costs almost 3 years (May 17, 2013) after the August
2010 project completion deadline expired.

Federal regulations at 44 CFR 206.204(c) and (d) place time restrictions on project
completion and set forth requirements for subgrantees to request extensions for
project completion. Hospital officials said that they were not aware they needed to
submit a project extension request before completing the work. As a result of our audit,
these officials submitted a project extension request, and in November 2013, FEMA
officials retroactively approved the extension for work the Hospital completed by
January 2013. Therefore, we consider this finding and the related recommendation to
be resolved and closed and require no further action from FEMA.

Finding C: Ineligible Building Repair Costs

The Hospital’s claim included $135,319 for contract costs that were ineligible. The
majority of these costs were ineligible because the following costs were outside the
scope of work that FEMA approved for building repairs:

    •	 $118,574 on Project 6328 for the installation of building skylights and contract
       retainage;
    •	 $14,432 on Project 4948 for electrical materials, plumbing work, removal and
       storage of flooded items, and building accessories; and
    •	 $1,033 on Project 4069 for replacement of a sprinkler system.

The remaining $1,280 was ineligible because it was not the Hospital’s legal responsibility
to pay it. This $1,280 represents half of the $2,560 the Hospital claimed for equipment
costs for its jointly-owned linen service. The Hospital was responsible for only half of the
damages to the linen service because it jointly owns it with another hospital. The State

4
  FEMA granted a blanket extension of the permanent work completion deadline until August 29, 2010,
for Hurricane Katrina applicants, which extended the Hospital’s previous project completion deadline of
August 29, 2009.

www.oig.dhs.gov                                     4                                    	OIG-14-53-D
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

agreed that the $1,280 of costs were not eligible because the costs were not the
Hospital’s responsibility. FEM!’s Public Assistance Policy Digest (FEMA 321, pp. 75−76)
states that funds for costs outside the scope of work that FEMA approves are not
eligible and disaster work must be the legal responsibility of the applicant.

Therefore, we question $135,319 as ineligible contract and equipment costs. Hospital
officials said the ineligible items it claimed resulted from an error on their part, and they
will request project funding adjustments to address the out of scope items and work
with the State to determine the legal responsibility of its jointly-owned equipment
costs.

Finding D: Unused Federal Funds

FEMA should deobligate $1,493,606 in unused funds consisting of—

         $1,463,606 of excess funding for five of the Hospital’s completed projects; and
         $30,000 for one project the Hospital does not intend to complete.

The Hospital did not use $1,493,606 of obligated funds because it completed work on
five projects and claimed $4,792,405, which was $1,463,606 less than the total amount
FEMA estimated and approved for the projects. Hospital officials also decided not to
complete $30,000 of work on another project. The Hospital completed the majority of
the five projects over 6 years ago, but the State did not provide timely closeout
information to FEMA for the projects. As a result, $1,493,606 of Federal funds that
FEMA could have put to better use remains obligated. In a recent OIG report, we found
that the State has been very slow providing closeout information to FEMA because State
officials had not made closing projects a priority.5 However, State officials said they have
since established a closeout schedule with FEMA.

Federal regulation 44 CFR 206.205(b)(1) requires grantees to make an accounting to the
FEMA Regional !dministrator of eligible costs for each approved large project “as soon
as practicable after the subgrantee has completed the approved work and requested
payment.” We consider 6 months after the subgrantee has completed the approved
work and requested payment to be a reasonable amount of time for the grantee to
complete its reviews of costs subgrantees claimed and to submit an accounting of
eligible costs to FEMA. Without timely closeouts, unneeded Federal funds remain
obligated as a liability against FEM!’s appropriated funds and can limit FEM!’s ability to
authorize other disaster assistance projects.



5
 Report Number DD-13-15, State of Louisiana Needs a Strategy to Manage Hurricanes Katrina and Rita Public
Assistance Grants More Effectively, September 26, 2013.

www.oig.dhs.gov                                        5                                       OIG-14-53-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Therefore, FEMA should require the State to submit closeout documentation for six of
the Hospital’s projects and put $1,493,606 ($1,463,606 plus $30,000) of unused Federal
funds to better use. Hospital officials agreed that FEMA should deobligate unused funds.
However, they said that they plan to submit additional invoices to the State for one
project. Hospital officials were unable to provide us the additional invoices, but said
they will continue to work with the State to provide invoices for project closeouts.

Finding E: Grant Management Issues

The majority of the findings in this report occurred because the State, as the grantee,
should have managed its responsibilities better. According to 44 CFR 13.40(a), grantees
are responsible for managing and monitoring the day-to-day operations of grant and
subgrant supported activities to assure compliance with applicable Federal
requirements. Additionally, grantees are required to ensure that subgrantees are aware
of requirements that Federal statutes and regulations impose upon them (44 CFR
13.37(a)(2)). In this instance, the State did not ensure the Hospital maintained adequate
source documentation to support claimed costs, did not provide closeout information to
FEMA timely, and did not ensure the Hospital completed project work within extended
completion deadlines.

It is not enough for the State merely to advise subgrantees of Federal regulations;
consistent with 44 CFR 13.40(a), the State is responsible for managing and monitoring
each project, program, subaward, function, or activity. Further, the FEMA-State
agreement for Hurricane Katrina requires the State to comply with the requirements of
the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, Public Law 93-288,
as amended, 42 U.S.C. §5121, et.seq., and its related Federal regulations. Therefore,
FEMA should direct the State to finalize and close out the Hospital’s completed projects
within 6 months of this report (finding D), and ensure that the Hospital—

    •	 maintains adequate source documentation to support claimed costs (finding A);
    •	 completes project work within required deadlines and requests applicable
       project extensions promptly (finding B); and,
    •	 claims costs only for approved project work (finding C).



                                 RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $325,853 of unsupported contract costs unless the
Hospital can provide adequate documentation to support these costs (finding A).



www.oig.dhs.gov                            6                               	OIG-14-53-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Recommendation #2: Disallow $307,495 of ineligible work the Hospital did not
complete by required deadlines or approve the Hospital’s project extension request for
additional time to complete the project. FEMA approved the Hospital’s project
extension during our audit; therefore, we consider this recommendation to be resolved
and closed and to require no further action from FEMA (finding B).

Recommendation #3: Disallow $135,319 of ineligible contract costs outside the
approved project scopes of work and equipment costs not the legal responsibility of the
Hospital (finding C).

Recommendation #4: Deobligate $1,493,606 of unused Federal funds and put them to
better use (finding D).

Recommendation #5: Direct the State to—

    •	 finalize and close out the Hospital’s completed projects within 6 months of this
       report;
    •	 ensure the Hospital completes project work within required completion 

       deadlines and requests applicable project extensions promptly; 

    •	 ensure the Hospital maintains adequate source documentation to support
       claimed costs; and
    •	 ensure the Hospital claims costs only for approved project work (finding E).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Hospital officials during our audit and
included their comments in this report, as appropriate. We also provided a draft report
in advance to FEMA, State, and Hospital officials and discussed it at exit conferences
held with FEMA officials on December 17, 2013, with State officials on January 6, 2014,
and with Hospital officials on January 7, 2014. FEMA officials generally agreed with all
recommendations, while the State reserved formal comment until after we issue our
final report.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include the contact information of responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until we receive and evaluate your response, we will consider the recommendations
open and unresolved.



www.oig.dhs.gov                             7                              	OIG-14-53-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Paige Hamrick,
Audit Manager; Chiquita Washington, Auditor-in-Charge; Mary Monachello, Auditor;
and Jamie Hooper, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            8                              OIG-14-53-D
                                                       f




                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

                                                                                                      Exhibit

                           Schedule of Projects Audited and Questioned Costs

                                                                                        Total             Unused
Project    Project     Net Award                                                      Questioned           Funds
Number    Category      Amount          Finding A     Finding B       Finding C         Costs           (Finding D)
 2499         E         $ 182,562        $        0        $      0    $          0     $         0     $             0
 2504         E              54,664              0              0                 0              0                 0
 3920         E              21,371              0              0                 0              0                 0
 4069         E            177,531               0              0            1,033            1,033                0
 4127         E              33,107              0              0                 0              0                 0
 4550         E          1,116,514           53,320        307,495                0         360,815                0
                                   6
 4948         E             72,244               0              0           14,432           14,432           72,244
 6328         E          1,825,916               0              0          118,574          118,574                0
 9689         E          1,914,651            7,870             0                 0           7,870           39,553
10193         B            325,500               0              0                 0              0            63,000
11086         E              30,000              0              0                 0              0            30,000
11629         E            158,274               0              0                 0              0                 0
12020         E           105,1817        218,223               0                 0         218,223           76,975
12043         B            234,358           46,440             0                 0          46,440                0
12072         E          3,176,878               0              0            1,280            1,280         1,211,834
18241         E              46,847              0              0                 0              0                 0
Totals                  $9,475,598      $325,853       $307,495        $135,319         $768,667        $1,493,606




    6
      The net obligated amount ($72,244) for Project 4948 is a result of the gross obligated amount
    ($189,478) less insurance reductions ($117,234). Based on actual costs incurred, we recommend FEMA
    deobligate $72,244 and address the excess insurance reduction ($22,412) to correct the net obligated
    amount of this project to zero.
    7
      The net obligated amount ($105,181) for Project 12020 is a result of the gross obligated amount
    ($671,616) less insurance reductions ($566,435).

    www.oig.dhs.gov                                   8                                      OIG-14-53-D
                                                 f




                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                                        Appendix
                                    Report Distribution List

Department of Homeland Security
Secretary
Chief of Staff
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-13-041)

Recovery Accountability and Transparency Board
Director, Investigations

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Grantee
Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness

State
Louisiana Legislative Auditor

Subgrantee
Senior Vice President and Chief Financial Officer, East Jefferson General Hospital
Senior Vice President of Legal Services, East Jefferson General Hospital

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure


www.oig.dhs.gov                                 9                                    OIG-14-53-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
